                                                                                                No, 0061     p, 4     t"_4
    DoOd, 28, 2009~ 10: 59AM




                               NATIONAL MILnOA'D l'ASSENGl!:R CORl'OnATlON
                                     OFFlCli! OF INSl'l!:CTOn GENERAL
                                       OFli'1CE OF INVESTIGATIONS
                                     mVESTWATlVE CLOSING llliPOR'r


         CASE NAME:     Mismanagement
         DATE OF REPORT:
         HEPORT PIml?Al,lED ll\(;                         SSA~
         I.    FlNP1NGS OF FA<;:T AND RECOMf\W:NDATlONS

               A. ,FmnINGS OF PAC]'
         1.    Th() Office of Inspeotol' General ("OIG"), OffIce of       rnvesligat1ol\~ (0001"), recolved
               InfonnatiOIl alleging that Amtrak had agreed to issue n chang", ordor fOl' work at the • • •
               • "Maintenanoe Faoility C-') which the olaimant believed should have been covered
               under a w31ranty clause from contract S 064 9067& with RaifPlan IntematlO11nl, Ino.
               ("RaiIPlm:,"). Although the warranty allegation was not sustained, OPs review of the
               contract and its associated ohange ol'ders revealed several questioned costs that merited
               additlonnl itwestigative work. .

(       2.    Boscd upon the contract documentatioll provided to OI by the 1'l'Ocureipollt Dopartment and
              01 interviews, 01 issued an Adminish'ative Report to management dett1iling fOUl' findings
              related to Chel1ge Ol'der COR·004, which Included: (I) the billing of ul!authorlzed genom!
              nnd udlnll1islt'R\ive costs by RaifPlan (otaling $12,239.22 for COR-004 Pa.rt A; (2) the
              double-bllling of baok plato material and UllRuthorized general and adllllnlslrative costs for
              COR,,004l.'mt B totallng $21,779,04; (3) the fqilure of the Senior COlllraotil1g Ap;ont to offSet
              an overbilling fol' Dividing 0001' Assemblies M\d al\ uuderpllymont for 011 Upper Extel"lor
              Fallel restlUing h\ all \mderpayment of$\,541 to RailPinn; and, (4) the failure of the Senior
              COlltl'tlcting Agent to properly administer the conll'act with Rai/Plon.

        3.    Management responded to Ot that IhQ Senior COlllmcting Agent Involved recelved.-<f
              coullsellng fronl her supervisol' and one-on-OIlO training 011 contract ad)\lillistl'ation practices.
              rn   addition, the l)rocu~ell1ent bepRl'tment established mRlldalory (ruining goals fol' all
              J,lroctnelnenlpersoMcl. Management also indicated to 01 that Am(l'lIk recouped $32,477.16
              nom R~ilPIQn tlu:o\lgh deduotions from ollt'ltanding invoIces,

              B, RlWOMMEl'IDATION'S
                   1.    Close cnse.




              Depllty Inspector GelllenlllC:OUllsel._ _ _..LrL-h~lle:___...!:.~~~7-
